Office of Inspector General  



       Audit of the Office of the
       Secretary’s Oversight of
     Document Scanning Services
                 A10-03




            March 2010


FEDERAL MARITIME COMMISSION
                               FEDERAL MARITIME COMMISSION
                                   Office of Inspector General
                                  Washington, DC 20573-0001

                                             March 1, 2010

Office of Inspector General


TO:            Karen V. Gregory
               Secretary


FROM:          /Adam R. Trzeciak/
               Inspector General


SUBJECT:       Audit of the Office of the Secretary’s Oversight of Document Scanning Services


        The Office of Inspector General conducted a review of contract oversight by the Office of
the Secretary (OS) for scanning services at the Federal Maritime Commission. The overall
objective was to assess whether the contract was adequately competed and monitored.

       This review of the agency’s contract was part of the annual financial statement audit.
This contract was selected based on the total awarded obligation and its impact on the financial
statements.

       We thank OS staff for its help and cooperation throughout the review.


cc:    Assistant Secretary
       Managing Director
       Special Assistant
                      Audit of the Office of the Secretary’s Oversight
                              of Document Scanning Services


       The Office of Inspector General (OIG) conducted a review of contract oversight by the
Office of the Secretary (OS) for scanning services at the Federal Maritime Commission (FMC).
The objective of this review was to assess whether the agency followed Federal Acquisition
Regulations (FAR) principles in the procurement of this contract and that the contractor was
adequately monitored.


Background

        A contract is a mutually binding legal relationship obligating the seller to furnish
products and/or services and the buyer to pay for them. In fiscal year (FY) 2009, the agency
awarded $2.3 million in contracts for the purchase of goods and services to help the agency meet
its mission-related needs.

       The Director of the Office of Management Services (OMS) serves as the agency’s
Contracting Officer (CO). The FMC also has a service level agreement with the Bureau of
Public Debt (BPD) to assist the agency with contracting for goods and services and other
procurement functions.

        When BPD serves as the CO on FMC procurements, BPD’s procurement specialist
directs the procurement action from start to finish. The specialist works with the FMC’s
program office to define the requirements and procure the service or item necessary to meet the
agency’s needs. All contracts, whether processed by FMC or BPD staff, are assigned a
Contracting Officer’s Technical Representative (COTR) to provide technical direction on the
contract within the scope of the contract. The COTR’s delegated responsibilities include
monitoring contract performance, evaluating work progress, inspecting and accepting
deliverables, approving invoices for payment and assisting the CO with the contractor’s
performance evaluation.

       In February 2008, the Office of the Secretary entered into a contract to scan the
Commission’s current and historical official paper documents for the OS, the Office of the
General Counsel (OGC), and the Bureau of Enforcement (BOE) into an electronic file format.
Program staff prepared a Procurement Request (PR) identifying the services needed and
estimated cost, and a Performance Work Statement (PWS) to initiate the contract action. 1 The
PR was entered into BPD’s procurement system - PRISM. The requisition was approved by the
Secretary, the Office of Budget and Finance (OBF) for budgetary clearance and OMS.

       The BPD served as the CO on the procurement of scanning services. Based on the PR
and the PWS, it identified qualified vendors and requested bids from them. Six vendors
submitted proposals competing for the stated services. Staff from the Secretary’s office and

       1
           A performance work statement identifies project tasks, deliverables and milestones.
OGC evaluated each proposal. The winning contractor was selected after a review of its
technical approach and past performance on similar projects. The contract provides the FMC
with a full-time contractor employee to work at FMC Headquarters to perform scanning services
at a fee of $26.12 per hour worked for the duration of the contract (per order number TPD-FMC-
08-00004). The FMC provides the contractor with needed hardware/software to perform the
duties.

        The contract was awarded for $52,240 a year, with the option to exercise four additional
years, totaling $261,200. The FMC is currently in the first option year of this labor-hour
contract.


Objectives, Scope and Methodology

       The objective of this review was to assess whether the agency followed FAR principles in
the procurement of this contract and that the contract was adequately monitored.

       We reviewed applicable FAR and FMC guidelines for the procurement of services, the
PWS to document contract milestones and deliverables, the contract, contract modifications and
contract evaluation summaries. We also reviewed “Productivity Standards” provided to the
contractor, completed timesheets and associated invoices.

       We interviewed the COTR and the FMC Secretary to document OS’s processes for
monitoring the contract. We also spoke to representatives at BPD to document its procurement
procedures and to discuss applicable FAR requirements.

        We analyzed cost data to compare contracting out verses hiring a full-time equivalent
(FTE) employee to perform scanning services in keeping with recent guidance from the Office of
Management and Budget’s (OMB) M-09-25, Improving Government Acquisition, dated July 29,
2009. This memorandum requires each agency to develop a plan to save 3.5 percent of baseline
contract spending in FY 2010 and 3.5 percent in FY 2011, for a total of 7 percent. We estimated
federal salary and benefit costs using various assumptions based on grade – and FTE availability.

       We conducted the audit in September 2009 through January 2010, in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on these objectives.


Audit Findings and Recommendations

        The Office of the Secretary and BPD met FAR requirements in procuring the scanning
services. OS initiated a requisition with a PWS that identified the need, reviewed proposals and
rated the contractors based on their technical approach and prior scanning work experience. OS
assigned a COTR who monitored the contractor through her review of work tasks and certified

                                                    2
the contractor’s timesheets and invoices. Timesheets maintained by the contractor tied to the
monthly contractor invoices. With a minor exception, the invoices were accurate and submitted
timely. Contractor staff performed well and appeared to meet PWS workload targets.

        However, we also identified some monitoring activities where improvement is possible.
One significant oversight, in our opinion, involves monitoring funding availability. We found
that the COTR made an unauthorized commitment of funds to maintain services after funding
authority had expired. In other words, the contractor was assigned tasks to perform even though
there were no funds obligated to pay for the services provided. We also found that the COTR
did not record when the contractor worked in lieu of a lunch break. Consequently we could not
review the accuracy of these occurrences.

        The COTR maintained a non-disclosure statement signed by the contractor as required in
the PWS because of the contractor’s access to sensitive data, but when the contractor went on
extended leave, her substitute did not complete the form. Finally our cost-benefit analysis
indicated that the agency could save money by hiring this employee over continuing to contract
out for services, but it would lose the expertise of the vendor for special needs.

       These and other findings, along with recommendations to address the noted deficiencies,
are provided below.


       Finding 1. The Agency made an Unauthorized Commitment of Funds to the
                  Contractor

        Federal Acquisition Regulation 1.602-3, defines an unauthorized commitment as an
agreement that is not binding solely because the government representative who made it lacked
the authority to enter into that agreement on behalf of the government. Ratification is the act of
approving an unauthorized commitment by an official who has the authority to do so.

        The Department of the Treasury’s Acquisition Regulations (DTAR) requires that a case
file be prepared for all ratifications above the micro-purchase threshold ($2,500 2 ) that includes
all relevant documents and facts concerning the commitment, the name of the individual making
the unauthorized commitment, whether s/he previously made other unauthorized commitments
and a statement indicating corrective action taken to preclude recurrence. Legal review must be
obtained for all ratifications exceeding 10 percent of the simplified acquisition threshold
($10,000). 3

        Section 13(g) of Commission Order 112, Procurement, states that no employee shall
enter into a formal or informal agreement to acquire services unless that employee has been
delegated specific written authority to do so. The order goes on to state that the requesting office
must not direct a contractor to perform services prior to being notified that a requisition has been
approved and a signed order is in place.

       2
        The FAR effective November 13, 2009, changed the micro-purchase threshold to $3,000.
       3
        According to the service level agreement between the FMC and BPD, BPD will process all transactions in
       accordance with both the FAR and DTAR.

                                                         3
        On January 5, 2009, the COTR prepared a requisition to exercise option year one of the
contract for scanning services. A purchase order was signed on January 21, 2009. The period of
performance for the first option year would begin on March 3, 2009. Because the agency was
funded under a continuing resolution at the time, the first option year was only funded for 10
days at $1,880.64.

        The January 21, 2009, order clearly stated on its face that the contract was incrementally
funded through March 13, 2009…. and that the contractor may not perform work in excess of
the obligation amount of the contract. (Emphasis added.) This prohibition on working without
obligated funds was further emphasized by the BPD contract specialist on January 22, 2009. In
an e-mail to the contractor and to the COTR, the contract specialist reiterated that the contract
was only partially funded through March 13, 2009, and that no work beyond that date is
authorized without another contract modification to add additional funds.

        The FMC received its appropriation for the remainder of FY 2009 on March 11, 2009.
However, we found no obligating documents to fund the scanning task (beyond the March 13,
2009 ending point) until June 12, 2009, when the contract was fully funded for the remainder of
the contract year. Notwithstanding the contract specialist’s reminder, and agency and FAR
requirements prohibiting the provision of services without funding authority, the contractor
continued to provide the agency scanning services for approximately three months (431 hours) at
a cost to the agency of $11,258.

        The OIG confirmed through contractor timesheets that the contactor worked during the
period March 13 through June 12. OS officials confirmed that they did not instruct the
contractor not to work during this period. However, we noted that the agency was not billed for
these services until May 8, 2009; previous invoices had been sent by this contractor monthly. 4
The Secretary informed us that the FMC was not billed timely because the contract manager
responsible for invoicing was on extended leave during this period.

        Whether the COTR told the contractor to work or simply permitted the contractor to
work, the action resulted in an unauthorized commitment of funds. For funding to be provided
for services already received, the contracting officer is required to ratify the action. We found no
evidence in the file indicating that the action was ratified, that documentation was prepared by
OS explaining the need for ratification or that legal review was sought (since the ratification
exceeded $10,000).

       In addition to violating FAR and agency rules, the action also put the COTR, the
contractor and the agency at risk: the COTR (or whoever allowed the contractor to continue
working without authorization) could have been personally liable for the obligation, the
contractor risked not being reimbursed by continuing to work without a valid contract and the
agency could have potentially faced a costly lawsuit.



       4
        The OIG confirmed that the invoice was not paid until June 25, 2009, just after the order obligating the
       funds was signed.

                                                            4
        OS officials informed the OIG during the period in question (March 13 – June 12) that
there was confusion within OS as to whether BPD, OMS or the COTR was to initiate a
requisition to fully exercise the contract. However, since this occurrence the Secretary stated
that the COTR is now aware of her responsibilities. If the Commission doesn’t receive its FY
2010 appropriations in time to fully exercise option year two (2), the Secretary indicated that the
office will incrementally fund the contract until the full appropriation is in place. The OIG
found numerous additional instances of unauthorized commitments in other FMC bureaus and
offices during fieldwork on our annual financial statement audit. These, along with an OIG
recommendation for corrective action, will be reported in the management letter to the financial
statements in the coming weeks.


       Finding 2.      Recordkeeping of Work In Lieu of Lunch Needs Improvement

        According to GAO’s Standards for Internal Control in the Federal Government,
transactions need to be clearly documented, and the documentation should be readily available
for examination. Transactions should be promptly recorded to maintain their relevance and
value to management in controlling operations. We found that OS generally has controls in
place to review contractor work production and timesheets timely.

        For each document scanned for the Secretary’s office, OGC and BOE, the contractor
maintains a log containing the document name, date received and date completed. When
documents are received by the contractor for scanning, she initials and dates the back of the
document; she also initials and dates the document when she completes the scanning process.
Documents are scanned into a daily folder where the COTR reviews the files for clarity before
the original files are shredded by FMC staff.

        On the 15th and the last day of each month, the contractor submits a signed timesheet to
the COTR identifying the contractor’s hours worked. The timesheet identifies the date, time-in,
time-out, description of work performed, hours worked and project name. The COTR verifies
the information on the timesheet, initials and dates the timesheet before it is submitted to the
contractor’s supervisor. Once the contractor’s supervisor certifies the timesheet it is submitted to
the COTR to reconcile with the monthly invoice.

        The invoice is submitted to the BPD where it is logged in and forwarded to the FMC’s
OBF. The invoice is provided to the COTR with a due date. The COTR reconciles it with the
timesheets and certifies the invoice is proper (and accurate) for payment. The COTR also
maintains an invoice log that provides a monthly opening balance, monthly invoice activity and
closing balance. The invoice is provided to the Secretary who, along with the COTR, certifies it
for final payment. As a final step the invoice is returned to BPD for final processing.

       For the most part, our review noted that the contractor was signed in for 8.5 hours: eight
hours billed to the agency and 30 minutes for lunch. On 27 occasions, we noted that the
contractor signed in for between six and eight hours, but made no deduction for lunch. Our
observations are presented in the following table:



                                                     5
                                        Table 1. Arrival/Departure Times

                                                                         Hours     Actual
                    Date of Occurrence           Arrival/Departure      Reported   Hours
                                                       Times            Worked     Worked
                    April 15, 2008              9:30 am – 5:00 pm         7.50        7
                    May 19, 2008                10:30 am – 5:30 pm          7       6.50
                    June 2, 2008                11:00 am – 5:00             6       5.50
                    June 19, 2009               9:00 am – 5:00 pm           8       7.50
                    July Timesheet*                                      90.50       90
                    August 8, 2008              9:30 am – 5:00 pm         7.50        7
                    August 15, 2008             10:00 am – 5:00 pm          7       6.50
                    August 19, 2008             8:30 am – 3:00 pm         6.50        6
                    August 26, 2008             9:30 am – 5:30 pm           8       7.50
                    September 18, 2008          8:30 am – 2:30 pm           6       5.50
                    September 29, 2008          8:45 am – 5:00 pm         7.45      7.25
                    December 4, 2008            8:30 am – 2:30 pm           6       5.50
                    December 15, 2008           10:00 am – 5:00 pm          7       6.50
                    January 9, 2009             8:45 am – 5:00 pm           8       7.75
                    January 30, 2009            9:00 am – 4:45 pm           7       7.25 5
                    February 19, 2009           8:30 am – 3:00 pm         6.50        6
                    March 3, 2009               9:15 am – 5:15 pm           8       7.50
                    March 31, 2009              8:15 am – 2:30 pm           6       5.75
                    April 15, 2009              8:30 am – 3:00 pm         6.50        6
                    May 4, 2009                 8:30 am – 2:30 pm           6       5.50
                    June 5, 2009                11:00 am – 5:00 pm          6       5.50
                    June 8, 2009                8:30 am – 3:00 pm         6.50        6
                    June 9, 2009                10:00 am – 5:00 pm          7       6.50
                    June 19, 2009               9:00 am – 5:00 pm           8       7.50
                    June 22, 2009               8:40 am – 3:30 pm         6.75      6.25
                    June 29, 2009               8:00 am – 2:30 pm         6.50        6
                    July 27, 2009               9:30 am – 5:00 pm           8       7.50
                    *inaccurately added and certified by the COTR



        The Fair Labor Standards Act of 1938 does not require an employer to provide meal
periods for their employees. However, under Code of Federal Regulation (CFR) (29 CFR
785.19 – Meal) when meals periods or rest breaks are provided employees must be completely
relieved from duty for the purpose of eating regular meals. Ordinarily 30 minutes or more is
sufficient for a bona fide meal period. The Department of Labor (DOL) defines a bona fide meal
period as time that is not compensable and not spent working.

       During the exit conference, the COTR told us that on each of the occasions identified, the
contractor worked through lunch. However, we found no notes or annotations on any timesheets
to support the COTR’s claim. As a result, we could not perform tests to verify that the COTR
was aware of the contractor’s decision not to take a lunch break.




       5
        The OIG also identified one instance where the contractor under billed the FMC by one-quarter of an hour
       ($6.53).

                                                                    6
       Although most contracts do not address lunch breaks, it is important for the COTR to
monitor lunch breaks to ensure that only the time spent working is billed to the agency,
especially on labor hour contracts where the agency is billed for time spent performing work
tasks.

Recommendation 1.     The OIG recommends that the COTR annotate the timesheet when the
                      contractor works through lunch to ensure that appropriate deductions are
                      made.


       Finding 3. COTR Files did not Contain a Non-Disclosure Statement for One
                  Temporary Contractor

        Agency contracts require contractors to sign non-disclosure forms. A non-disclosure
agreement prohibits an individual or firm from releasing, disseminating or transferring, whether
orally or by any other means, any part of confidential information, to any person or entity, and
provides recourse for the Commission should any confidential information be released.

        The performance work statement prepared by OS and provided to the contractor states
that the work to be performed is considered sensitive, therefore, any personnel performing tasks
on the contract is required to sign a non-disclosure statement.

       We reviewed the COTR’s file and found a non-disclosure agreement for the full-time
contract staff. However, in March 2008 this employee was on extended leave and another
contract employee substituted for her. A non-disclosure form was not obtained for this
individual.

Recommendation 2.     We recommend the COTR ensure that all contractor employees assigned
                      to agency tasks submit a non-disclosure form.


       Finding 4. Cost-Analysis of Contractor vs. Federal Employee

        The Office of Management and Budget issued M-09-25; Improving Government
Acquisition dated July 29, 2009. This OMB memorandum requires agencies to review their
existing contracts and acquisition practices and develop a plan to save 7 percent of baseline
contract spending by the end of FY 2011(3.5 percent in FY 2010 and another 3.5 percent in FY
2011). Using FY 2009 contract figures, the agency needs to save about $81,000 annually to
meet the goal.

        The OIG assessed whether hiring a full-time staff dedicated to scanning documents and
other technical duties would help the agency to meet the OMB requirement. Clearly, $52,000
per year would go a long way toward satisfying the agency’s contribution toward this goal.
However, we also reviewed the overall fiscal impact on the agency resulting from the additional
funded FTE (full-time equivalent) and the trade offs in flexibility and staffing expertise. While



                                                    7
the conversion to this position would have little fiscal impact, we believe the benefits gained
through contracting, in this instance, outweigh the benefits from hiring full time.

        The OIG performed a cost analysis under various pay-rate assumptions over a five year
period. We used the Office of Personnel Management’s 2009 pay scale along with a projected
two-percent annual cost of living adjustment and a fringe benefit rate of 36.45 percent.

        The current award for the contract is $52,240, each year for a five year total of $261,200.
The following table projects fully loaded salary for five years at the GS-5 – GS-7 pay scales. For
example, salary and benefits for a GS-5 employee, with annual step increases, totals to $245,409.
The difference between $245,409 and $261,200 (contract cost) is $15,791, or the estimated
savings from hiring staff verses contracting out for five years. As the table indicates, however,
this cost savings to the agency disappears as the grade-scale level increases:

                                      Table 2. Cost Comparison for Five Years

                                                                                            Difference
                 Grade/Step            Total         Total        Total        Grand          from
                                       Yearly      Projected     Fringe       Total for       Entire
                                       Salary       COLA         Benefits     All Steps     Contract
           GS-5/1 through GS-5/4 6    $176,326       3,527        65,556      $245,409       $15,791
           GS-6/1 through GS-6/4      $196,544       3,931        73,073      $273,548      ($12,348)
           GS-7/1 through GS-7/4      $218,416       4,368        81,205      $303,989      ($42,789)



        Although the OMB guidelines do not require such a cost/benefit analysis, it is useful for
decision makers when considering among positions to hire when the function performed by the
contractor is still needed by the agency. Not reflected in the above analysis are the non-
budgetary factors, including the added flexibility contracting brings and the finite number of FTE
that the agency cannot exceed. Currently, OS does not have an FTE to use on this or any
position it wishes to create. It would have to compete with other FMC bureaus and offices, each
having unmet staffing needs of their own. Further, the added flexibility the contractual
relationship brings is useful and can save the agency money too. For example, a technological
impasse can be brought to the contractor supervisor’s attention and addressed, without the need
to encumber staff time on projects where it lacks expertise.

        The Secretary recognized the advantages and disadvantages (listed above) to contracting
out the scanning function. She indicated that she has no plans to hire full time for the position.
The OIG concurs with her decision.




       6
         A government employee at a step four within grade has a waiting period of two years before eligible for a
       step five.

                                                            8
Form FMC-2      UNITED STATES GOVERNMENT                      FEDERAL MARITIME COMMISSION
 (Rev. 07-89)


          Memorandum
TO               : Inspector General                                     DATE: February 25, 2010


FROM             : Secretary


SUBJECT:           Response of OS to the OIG’s Draft Audit Report on the Secretary’s Oversight of
                   Document Scanning Services


                          This memorandum constitutes management’s response to the subject OIG
                   Audit Report re-transmitted in draft form on the week of February 16th, and
                   subsequent to a follow-up OIG exit conference with OS staff and Managing Director
                   staff on February 4, 2010.

                           The OS concurs with all of the OIG’s findings and recommendations. The OS
                   has either already taken steps to address findings and adopt recommendations or
                   will do so as discussed below.

                   Finding 1. The Agency made an Unauthorized Commitment of Funds to the
                   Contractor

                   The OS agrees with this finding and has taken the following step(s) to address
                   this issue. As indicated in the OIG’s finding, the COTR is now aware of her
                   responsibilities in this area. If the Commission does not receive its FY 2010
                   appropriations in time to fully exercise option year two (2), the office will
                   incrementally fund the contract until the full appropriation is in place.

                   Finding 2. Recordkeeping of Work In Lieu of Lunch Needs Improvement
                   Recommendation 1 – The OIG recommends that the COTR annotate the
                   timesheet when the contractor works through lunch to ensure that appropriate
                   deductions are made.
                   The OS agrees with this recommendation and the COTR has implemented the
                   recommendation.
       Finding 3. COTR Files did not Contain a Non-Disclosure Statement for One
       Temporary Contractor
       Recommendation 2 – We recommend the COTR ensure that all contractor
       employees assigned to agency tasks submit a non-disclosure form
       The OS agrees with this finding and has taken the following steps to address this
       issue. The COTR was given an electronic copy of the standard Non-Disclosure
       form issued by the Commission’s Office of Information Technology for
       contractors and has made it a policy to have each contractor fill it out and sign
       the Non-Disclosure form before they are issued a Contractor Building Pass by
       the Commission’s Office of Management Services.




                                               /Karen V. Gregory/
                                               Secretary


Cc: Managing Director
    (Audit Follow-up Official)




                                        2
